APPENDIX
District of Columbia
Court of Appeals

31

Case l:19-cv-03273-RC Document 237 Filed 12/04/20 Page 1 of 1

^Lxtlitb

(ttmtri 0f appeals
For The Dstrict of Columbia Circutt

September Term, 2020

No. 20-5298

1:19-CV-03273-RC
Filed On: December 4,2020
In re: Jack Stone,
Petitioner

BEFORE:

Millett, Pillard, and Rao, Circuit Judges
ORDER

Upon consideration of the motion for leave to proceed in forma pauperis, the petition
for writ of mandamus, the supplements thereto, the motion for waiver of fees, and the
motion for exemption from fees, it is
ORDERED that the motion for leave to proceed in forma pauperis be granted. It is
FURTHER ORDERED that the petition for writ of mandamus be denied. Petitioner
has not demonstrated that he has “no other adequate means to attain the relief he desires.”
United States v. Fokker Servs. B.V.. 818 F.3d 733, 747 (D.C. Cir. 2016). Specifically,
petitioner sought in district court the same relief he now seeks in this court, and he can
appeal from any final judgment entered in the district court. See, e.g„ Will v. United States,
389 U.S. 90,97 (1967) (observing that mandamus "may never be employed as a substitute
for appeal”). Alternatively, because some of petitioner’s request for relief appear to be
based on evidence that has not been presented to the Department of State, plaintiff can
pursue (or renew) these requests before that agency.
FURTHER ORDERED that the motions for waiver of and exemption from fees be
dismissed as moot.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

32

/s/
Manuel J. Castro
Deputy Clerk

JSntteh States GJaurt nf Appeals
For The District of Columbia Circuit

No. 20-5298

September Term, 2020
1:19-cv-03273-RC
Filed On: January 28, 2021

In re: Jack Stone,
Petitioner

BEFORE:

Millett, Pillard, and Rao, Circuit Judges
ORDER

Upon consideration of the petition for rehearing, styled as an "emergency motion
for passport issuance," it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

33

is!
Daniel J. Reidy
Deputy Clerk

APPENDIX
District Court for the
District of Columbia

34

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 1 of 18

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JACK STONE,
Plaintiff,

Civil Action No.:

19-3273 (RC)

v.

Re Document Nos.:

72, 73,78, 79,81,
82

U.S. EMBASSY TOKYO, et ai,
Defendants.
MEMORANDUM OPINION
Granting in Part and Denying in Part Plaintiff’s Motions for Leave to Amend the
Second Amended Complaint
I. INTRODUCTION
In this case, Plaintiff Jack Stone (“Stone”), proceeding pro se, claims that the United
States Embassy in Tokyo and the Department of State (“Defendants”) have unlawfully refused to
issue citizenship and immigration documents that he requested for his family. This case was
transferred from the District of Hawaii, and Plaintiff has now made additional filings in this
court: a request for an order of return under the Hague Convention on the Civil Aspects of
International Child Abduction; motions for orders to compel the Department of State to grant
U.S. citizenship to his children and issue his wife’s visa; and claims under 42 U.S.C. § 1983 and
the Federal Tort Claims Act (“FTCA”) for an incident involving a Department of State official.
Construing these filings as motions to amend the complaint, the Court will grant them in part and
deny them in part for the reasons explained below.

35

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 2 of 18

II. BACKGROUND1
Plaintiff, a United States citizen currently residing in Japan, filed suit against Defendants
in the District of Hawaii, seeking an order to compel the issuance of Plaintiffs first-bom child’s
passport and unspecified damages. Pl.’s Second Am. Compl. (“Pl.’s SAC”) 1,9, ECFNo. 39.
In Plaintiffs Second Amended Complaint, the operative complaint in this case, Plaintiff pled
that his wife left the U.S. for Japan with Plaintiffs child without Plaintiffs consent. Pl.’s SAC ^
6. Plaintiff later claimed that his wife left the U.S. out of fear that she would be deported
because Defendants had not issued her visa, despite Plaintiff submitting an 1-130 (Petition for
Alien Relative) on behalf of his wife more than a year prior. See Pl.’s Aff. of Wife’s Visa Appl.
(“Pl.’s Aff.”) 5, 7, ECF No. 102.
The District Court for the District of Hawaii transferred this case to this District “so that
substantive issues can be addressed on their merits.” Order Den. Pl.’s Emergency Mot. and
Transferring Action (“Transfer Order”) 17, ECF No. 64. Prior to transferring this case, however,
the District of Hawaii Court made two preliminary determinations. First, Plaintiffs vague claim
for unspecified damages was insufficient to find waiver of Defendants’ sovereign immunity for
the claim. See id. at 9. Second, the Administrative Procedure Act applied to Plaintiffs claim for

1

This background is drawn from the facts Plaintiff (1) pled in the Second Amended
Complaint and (2) alleged in support of his subsequent filings. See Foman v. Davis, 371 U.S.
178, 182 (1962) (“If the underlying facts or circumstances relied upon by a plaintiff [in a
proposed amendment] may be a proper subject of relief, he ought to be afforded an opportunity
to test his claims on the merits.”). Plaintiffs filings, which the Court construes as motions to
amend, must be able to satisfy a motion to dismiss standard, which means that the filings “must
contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its
face.’” See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell All. Corp. v. Twombly, 550
U.S. 544, 570 (2007)); Fordv. Suntrust Mortg., 282 F. Supp. 3d 227, 232 (D.D.C. 2017) (“[l]f
Plaintiffs' proposed Amended Complaint would fail to state a claim under the Twombly/lqbal
pleading standard, those proposed amendments would be ‘futile.’”).

2

36

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 3 of 18

an order to compel Defendants to issue his first-born child’s passport, “thereby waiving
[Defendants’] sovereign immunity.” Id. at 10. This claim is currently the subject of a separate
summary judgment briefing and not at issue here.
Following the District of Hawaii’s transfer of this case, Plaintiff made additional filings,
including: (1) a request for a return order as to Plaintiffs first-bom child under the Hague
Convention on the Civil Aspects of International Child Abduction, ECF Nos. 72, 782; (2) a
motion to compel U.S. citizenship for Plaintiff’s second-bom child, ECF Nos. 73, 793; (3) a
request to add Hughes Ogier, a Department of State official, to the suit as an additional defendant
and bring claims under 42 U.S.C. § 1983 and the Federal Tort Claims Act for an unrelated
incident involving him, ECF Nos. 81, 81-1; and (4) amotion to compel Defendants to issue
Plaintiffs wife’s visa, ECF No. 82.4 The Defendants treated these filings as motions to amend
the Second Amended Complaint. The filings are now fully briefed and ripe for the Court’s
consideration.

2 Plaintiff filed ECF No. 78, which appears to be an amendment to ECF No. 72. In ECF
No. 78, Plaintiff put forward his argument for why the Court should procedurally grant leave to
amend the complaint. In a supporting document, ECF No. 78-1, Plaintiff highlighted the
grounds on which he sought a request to include a Return Order. The basis of ECF No. 72 and
ECF No. 78 remain the same, with the same requested relief and basic facts to support the
request. As such, this Order applies to both filings.
3 After filing ECF No. 73, Plaintiff made an additional—nearly identical—filing seeking
an order to compel U.S. citizenship for his second child. See Pl.’s Mot. to Compel U.S.
Citizenship, ECF No. 79. The Court will reference only ECF No. 73, but this Order applies to
both filings.
4 In his pleadings, Plaintiff references a Freedom of Information Act (“FOIA”) request,
see, e.g., Pl.’s Mot. to Am. ^[26, ECF No. 81-1, but does not appear to be seeking to amend the
complaint to include a FOIA claim.

3

37

Case l:19*cv-03273-RC Document 160 Filed 07/24/20 Page 4 of 18

UI. LEGAL STANDARD
The Court agrees with Defendants that Plaintiff’s filings should be construed as motions
to amend, as the filings seek to introduce novel claims, add new factual allegations and a new
defendant, and broaden the scope of the operative complaint.5 A party may amend its pleading
once as a matter of course within twenty-one days after serving its pleading, or within certain
time periods if the pleading is one to which a responsive pleading is required. Fed. R. Civ. P.
15(a)(1); see Bode <& Grenier, LLPv. Knight, 808 F.3d 852, 860 (D.C. Cir. 2015). Otherwise
(such as here, when a party has already filed amended pleadings), a party may amend its
pleading only with the opposing party’s consent or the court’s leave. Fed. R. Civ. P. 15(a)(2);
see also Knight, 808 F.3d at 860. The decision to grant or deny leave to amend “is committed to
a district court’s discretion,” Firestone v. Firestone, 76 F.3d 1205, 1208 (D.C. Cir. 1996), and
should be freely given when justice so requires, Fed. R. Civ. P. 15(a)(2). However, the court
may deny a motion to amend if the proposed amendment would be futile. De Sousa v. Dep 7 of
State, 840 F. Supp. 2d 92,113 (D.D.C. 2012) (citing Foman v. Davis, 371 U.S. 178, 182(1962)).
The motion to amend is futile if the “proposed claim would not survive a motion to dismiss.”
James Madison LTD by Hecht v. Ludwig, 82 F.3d 1085, 1099 (D.C. Cir. 1996). Of course, a
court must be mindful that a pro se litigant’s complaint is “construed liberally and is held to ‘less
stringent standards than formal pleadings drafted by lawyers.”’ Lemon v. Kramer, 270 F. Supp.
3d 125, 133 (D.D.C. 2017) (quoting Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam)).

5 Even if the Court construed the filings as motions to supplement, a motion to
supplement is “subject to the same standard” as a motion to amend. fVildearth Guardians v.
Kempthorne, 592 F. Supp. 2d 18, 23 (D.D.C. 2008).
4

38

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 5 of 18

IV. ANALYSIS
As an initial note: the local rules provide that a motion for leave to amend “shall attach,
as an exhibit, a copy of the proposed pleading as amended.” Loc. Civ. R. 15.1. Failure to follow
Local Rule 15.1 may be the basis for the court to deny leave to amend. See Parker v. District of
Columbia, No. 14-2127, 2015 WL 7760162, at *2 (D.D.C. Dec. 1, 2015) (holding that a pro se
plaintiff’s request to amend was insufficient because he failed to comply with local Rule 15.1
and did not indicate the grounds on which he sought an amendment, leaving the court “unable to
assess the merits of his request”). Although Mr. Stone did not provide a consolidated version of
a proposed third amended complaint in any of his filings, he did provide enough detail for the
Court to evaluate the merits of each request. For these reasons, the Court will overlook the Rule
15.1 requirement and consider each additional proposed claim in turn.
A. Order for Return under the Hague Convention on the Civil Aspects of International
Child Abduction
Invoking the Hague Convention on the Civil Aspects of International Child Abduction
(“Convention”), Plaintiff requests an order for return for his first-born minor child, who was
taken by Plaintiff's wife to Japan. Pl.’s SAC 5J 6. Defendants’ primary contention is that an
amendment to include this request would be futile because the Court lacks jurisdiction to order
the child’s return from Japan. Defs.’ Opp’n to Pl.’s Mot. for Leave to Am. (“Defs.’ Opp’n”) 3,
ECFNo. 89.
The Hague Convention on the Civil Aspect of International Child Abduction aims to
“secure the prompt return of children wrongfully removed to or retained in any Contracting
State” and “to ensure that rights of custody and of access under the law of one Contracting State
are effectively respected in the other Contracting States.” Hague Convention on the Civil
Aspects of International Child Abduction art. 1(a), Oct. 25, 1980,

5

39

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 6 of 18

https://assets.hcch.net/docs/e86d9f72-dc8d-46f3-b3bf-e10291 lc8532.pdf [hereinafter
Convention]. The “central operating feature’' of the Convention is a parent’s right to petition a
Contracting state for the child’s return to the child’s country of habitual residence, which would
be the forum for any child custody adjudications. Abou-Haidar v. Vazquez, 945 F.3d 1208, 1210
(D.C. Cir. 2019) (internal citation omitted).
The United States, a contracting state to the Convention, codified the provisions of the
Convention through the International Child Abduction Remedies Act (“1CARA”). See Abbott v.
Abbott, 560 U.S. 1, 5 (2010) (citation omitted). Under ICARA, “[a]ny person seeking to initiate
judicial proceedings under the Convention for the return of a child ... may do so ... by filing a
petition for the relief sought in any court... which is authorized to exercise its jurisdiction in the
place where the child is located at the time the petition is filed” Yaman v. U.S. Dep 7 ofState,
786 F. Supp. 2d 148, 154 (D.D.C. 2011) (quoting 42 U.S.C. § 11603(b)). ICARA is consistent
with Article 12 of the Convention, which provides that “fwjhere a child has been wrongfully
removed or retained in terms of Article 3 and, at the date of the commencement of the
proceedings before the judicial or administrative authority of the Contracting State where the
child is ... the authority concerned shall order the return of the child forthwith.” Convention art.
12 (emphasis added). Overall, it is abundantly clear that, for a federal district court to order the
return of an abducted child under ICARA, the aggrieved parent must “file a petition in state or
federal district court for the return of a child located within the court’s jurisdiction,” Haimdas v.
Haimdas, 720 F. Supp. 2d 183, 197 (E.D.N.Y. 2010), and that a child located abroad is not
within that jurisdiction, see id. (“[Petitioner bears the initial burden to show by a preponderance
of the evidence that the child has been wrongfully removed to or retained in this country within
the meaning of the Convention.” (emphasis added)); see also Fernandez v. Bailey, 909 F.3d 353,

6

40

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 7 of 18

359 (11th Cir. 2018) (“Because ICARA requires reviewing courts to have personal jurisdiction
over the abducted child, a parent can only file a return petition in the district where the child is
located.”).

Because Plaintiff represents that he discovered his child in Japan and currently resides
there with his child, there is no dispute that the child is located in Japan. Plaintiffs complaint
and other filings make clear that his wife left for Japan from the United States with Plaintiffs
child on November 11, 2018. Pl.’s SAC ^ 6; PL’s Aff. 8. And on January 1, 2019, Plaintiff
discovered his son at Plaintiffs parents-in-law’s house in Japan. Pl.’s SAC H 17. Thus,
Plaintiffs child is outside the jurisdiction of the Court, and the Court cannot issue a return order
under ICARA.
Plaintiff seems to recognize that Japan is the appropriate venue for seeking a return order,
but has been unsuccessful in obtaining a return order from Japanese authorities. See Pl.’s Reply
11, ECFNo. 101. Plaintiff argues that, with Japanese authorities seemingly unwilling to help,
his only recourse is to request a return order from a U.S. court. See id at 11-12. The Court
acknowledges the apparent unfairness of the situation, but is powerless to remedy it, as it simply
has no authority under ICARA to order the return of a child located abroad. Indeed, Plaintiff has
not cited a case in which a court ordered a return under analogous circumstances. The Court will
therefore deny as futile Plaintiffs request to amend his complaint to include an order for return
under the Convention.

7

41

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 8 of 18

B. Motion to Compel U.8. Citizenship for Plaintiffs Second Minor Child
Plaintiffs second child6 was bom on September 27,2019 (after this suit was filed), and
he now seeks an order to compel Defendants to grant U.S. citizenship to this child. Pl.’s Mot. to
Compel U.S. Citizenship 1,3, ECF No. 73. Defendants contend that this claim is not ripe for the
Court to adjudicate. They suggest that, because Plaintiff has not completed the steps required for
the Department of State to make a determination on the matter of the second-child's citizenship,
there has not been final agency action. Defs.’ Opp’n 6. Defendants also contend that, due to
lack of final agency action, the Court lacks subject-matter jurisdiction. Id.
Under the Administrative Procedure Act (“APA”), “(a] person suffering legal wrong
because of agency action, or adversely affected or aggrieved by agency action ... is entitled to
judicial review thereof.” 5 U.S.C. § 702. However, the APA generally limits causes of action
to those challenging final agency action. Trudeau v. FTC, 456 F.3d 178, 188 (D.C. Cir. 2006).
Final agency action “‘mark[s] the consummation of the agency’s decision making process’ and
is ‘one by which rights or obligations have been determined, or from which legal consequences
will flow.”’ Reliable Automatic Sprinkler Co. v. Consumer Prod. Safety Comm ’n, 324 F.3d
726,731 (D.C. Cir. 2003) (quoting Bennett v. Spear, 520 U.S. 154, 177-78(1997)). Although
the court does not lose jurisdiction solely because a claim under the APA lacks final agency
action, the claim might not survive a motion to dismiss. See John Doe, Inc. v. DEA, 484 F.3d

6 There is some uncertainty as to whether Plaintiff is the biological father of this child.
On May 19,2019, in an email communication to the Department of State, Plaintiff expresses
some doubt that the child is his. See Admin. Rec. STATE-539, EEC No. 122-7 (Plaintiff
explaining that his wife “is now FIVE MONTHS pregnant with a second child that may, or may
not be mine”). Additionally, the timeline does not work in Plaintiffs favor. Plaintiffs wife left
for Japan in November 2018. Pl.’s Aff. 8, ECF No. 102. Plaintiff has described their
interactions until the birth of the child in September 2019 as brief and hostile. See Pl.’s SAC
11,16-18.
8

42

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 9 of 18

561, 565 (D.C. Cir. 2007) (“When judicial review is sought under the APA ... the requirement
of‘final agency action' is not jurisdictional.”); Trudeau, 456 F.3d at 188-89 (“[Although the
' absence of final agency action would not cost federal courts their jurisdiction ... it would cost
[Plaintiff] his APA cause of action.”); Reliable Automatic, 324 F.3d at 731 (determining that
lack of final agency action “was no basis for dismissal under Rule 12(b)(1)” but the trial court’s
dismissal of the case “may [be] properly affirm[ed]... pursuant to Rule 12(b)(6)”). Courts
may review agency action, however, when the delayed agency action is “extremely lengthy” or
when “‘exigent circumstances render it equivalent to a final denial of petitioners’ request.’”
Pub. Citizen Health Research Grp. v. Comm'r, FDA, 740F.2d 21, 32 (D.C. Cir. 1984) (quoting
Envtl. Def. Fund, Inc. v. Hardin, 428 F.2d 1093, 1098 (D.C. Cir. 1970)).
To support their non-finality argument, Defendants explain that to obtain citizenship
documents for a child bom abroad and who is a citizen at the time of their birth, an applicant
must appear at a U.S. embassy with the child and complete a Consular Reports of Birth Abroad
(“CRBA”) application. See Defs.’ Opp’n 6. Defendants acknowledge that Plaintiff submitted a
CRBA, but contend that the application was incomplete, as the application contained blank
signature blocks. Id. at 7. Additionally, Defendants claim that Plaintiff has not appeared in
person at a U.S. embassy, with or without his second-bom child, to complete the process of
obtaining the child’s citizenship documents. Id. at 8.
In response, Plaintiff argues that the COV1D-19 pandem ic has prevented him from
appearing at the U.S. Embassy in Tokyo and he has been unable to obtain his wife’s (that is, his
second-bom child’s mother) passport, which an email confirming submission of his CRBA
application indicated “may be necessary for a final determination.” See PI.’s Reply at 29-30. As
mentioned above, Plaintiffs wife is a non-U.S. citizen; Plaintiff challenges the suggested

9

43

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 10 of 18

requirement of having a non-U .S. citizen present herself at an embassy or provide documents to
the Department of State to obtain citizenship for his child. Id. at 31. Additionally, Plaintiff
argues that because he is unable to obtain his wife’s passport or have her appear at the Embassy,
the Department of State’s current refusal to grant U.S. citizenship is “final agency action.” Id.
He also contests Defendants’ factual assertion that the CRBA application was incomplete or
deficient. See id. at 29.
Under these circumstances, the Court concludes that Mr. Stone’s proposed amendment
would not be futile. While the Department of State has not formally “denied” the citizenship
application, the agency has considered the CRBA application and found it deficient. That strikes
the Court as a decision from which legal consequences flow. More generally, the parties appear
to be at a legal and factual impasse. Plaintiff claims that he completed a valid CRBA application
and that any additional in-person interview or documentation requirements are unnecessary or
illegal, at least while COVID-19 makes an in-person appointment at the Embassy impossible.
See id. at 31. For their part, Defendants maintain that the CRBA application Plaintiff submitted
was flawed, see Defs.’ Opp’n at 7, and do not address in their briefing whether the Department
of State requires that the child’s mother be present at an embassy or provide certain
documentation to complete the CRBA process. Defendants also do not discuss whether the inperson requirement can or should be waived under present circumstances. All in all, there is no
indication that further factual development would aid the Court, or that any further agency
decision-making is forthcoming. The Government’s position appears to be that it could
indefinitely avoid judicial review of its actions here by postponing a “formal” decision, which
strikes the Court as untenable. See Emtl. Def. Fund, 428 F.2d at 1099 (“[W]hen administrative
inaction has precisely the same impact on the rights of the parties as denial of relief, an agency

10

44

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 11 of 18

cannot preclude judicial review by casting its decision in the form of inaction rather than in the
form of an order denying relief.”). Mr. Stone can plausibly argue that these “exigent
circumstances render [the action] equivalent to a final denial of petitioner’s request.” Pub.
Citizen, 740 F.2d at 32.
Thus, because the circumstances Plaintiff relied upon “may be proper subject of relief,”
Plaintiff is entitled to “lest his claim[s] on the merits.” Foman, 371 U.S. at 182. Given that
Plaintiffs request to include a Motion to Compel U.S. Citizenship for his second-bom child is
not futile, the Court will grant Plaintiff leave to amend in this respect. However, in the amended
complaint, the Plaintiff should adequately explain why Defendants’ actions here qualify as final
under the APA or why finality is not required^ The Court also notes, in passing only, that some
of the factual and legal disputes discussed here might be productively narrowed through
discussions between the parties.
C. Claims Regarding Destruction of Records
In other filings, Plaintiff claims that in 2013, Japanese officials wrongfully detained and
tortured him. Pl.’s Mot. to Am.

7-9, ECF No. 81-1. According to Plaintiff, in 2014, a

Department of.State employee photographed and reported Plaintiff’s condition where Plaintiff
was detained and promised that he would preserve the photographs so Plaintiff could bring suit
against the Japanese officials. Id. at ^ 13-19. Plaintiff alleges that Hughes P. Ogier, a
Department of State official, willfully destroyed the photographs and other records relating to the
Japanese officials’detainment of Plaintiff. Id. at 1f121, 26. Plaintiff now moves to amend his

II

45

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 12 of 18

Second Amended Complaint to add Mr. Ogier as a defendant in this case and include claims for
monetary damages under 42 U.S.C. § 1983 and the Federal Tort Claims Act (“FTCA”).7
1. 42 U.S.C. § 1983 and/or Bivens
One of the provisions invoked by Mr. Stone—42 U.S.C. § 1983—permits claims against
persons acting under the color of state law for violations of a plaintiff’s constitutional rights.
Settles v. United States Parole Comm'n, 429 F.3d 1098, 1103 (D.C. Cir. 2005) (citing Williams
v. United States, 396 F.3d 412, 413-14 (D.C. Cir. 2005)). However, § 1983 does not apply to
federal officials. Id. at 1104. As a result, § 1983 is inapplicable in this case because Defendants
are federal entities and Mr. Ogier, whom Plaintiff seeks to name as a defendant, was a federal
official at the time of the alleged incident. Moreover, a proper claim against the United States
must be based on a statute that unequivocally waives the United States’ sovereign immunity. See
id. at 1105. Plaintiff argues that “Congress waived the federal government’s immunity across a
broad range of substantive law.” PL’s Reply 7. § 1983, however, does not contain a provision
that waives the United States’ sovereign immunity nor is there an indication that Congress
intended for § 1983 to apply to the federal government. See Settles, 429 F.3d at 1105. Asa
result, the Court would lack subject-matter jurisdiction over a § 1983 claim against Mr. Ogier or
the United States, because § 1983 does not create a cause of action against a federal actor nor
does it waive the United States’ sovereign immunity. See Miango v. Dem. Rep. Congo, 243 F.
Supp. 3d 113, 134 (D.D.C. 2017) (finding that “[bjecause section 1983 does not create d cause of
action against a federal actor, and there is no other applicable waiver of sovereign immunity, the
Court does not have jurisdiction”).

7 In his filing, Plaintiff also cites two additional statutes, 18 U.S.C. § 1503 and § 2071(a).
Pl.’s Mot. to Am. 35, 36, ECFNo. 81-1. “These, however, are criminal statutes that create no
private right of action.” Hunterv. D.C., 384 F. Supp. 2d 257, 260 n.l (D.D.C. 2005).
12

46

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 13 of 18

Alternatively, if the Court construed Plaintiff s request as a claim against Mr. Ogicr in his
personal capacity seeking monetary damages for alleged constitutional violations pursuant to
Bivens v. Si* Unknown Named Agents of the Fed. Bureau ofNarcotics, 403 U.S. 388 (1971), the
amendment would still be futile. A Bivens claim is essentially the federal equivalent to a § 1983
action: “an action against a federal officer seeking damages for violations of the plaintiffs
constitutional rights.” Simpkins v. D.C. Gov't, 108 F.3d 366, 368 (D.C. Cir. 1997). However, a
Bivens claim is available only in limited circumstances and expanding a Bivens remedy is a
“disfavored” judicial activity. Ziglar v. Abhasi, 137 S. Ct. 1843, 1857 (2017) (quoting Ashcroft
v. Iqbal, 556 U.S. 662,675 (2009)). Even generously construed, Plaintiffs filings do not support
a cause of action under Bivens. First, Plaintiff does not allege that Mr. Ogier violated any
constitutional right. Second, as stated above, Plaintiff seeks to bring a claim based on actions
that occurred in a foreign country, but “extraterritorial application” of a Bivens action is
“virtually unknown.” Meshal v. Higgenbotham, 804 F.3d 417,418 (D.C. Cir. 2015); see also
Hernandez v. Mesa, 140 S. Ct. 735, 749-50 (2020) (holding that a Bivens remedy was not
available for a cross-border shooting claim because Congress, “which has authority in the field
of foreign affairs,” has not “create[d] liability” for extraterritorial conduct of a federal official
and courts cannot create a damages remedy for such conduct).
Accordingly, the Court will deny Plaintiffs request for leave to amend the Second
Amended Complaint to include a § 1983 claim or a Bivens claim.
2. Federal Tort Claims Act
The FTCA is a limited waiver of sovereign immunity that makes the federal government
liable for certain torts committed by federal employees acting within the scope of their
employment. A proper FTCA claim requires that the United States be a named defendant in the

13

47

j

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 14 of 18

suit. See Sanchez-Mercedes v. Bureau ofPrisons, No. 19-cv-54, 2020 U.S. Dist. LEXIS 64946,
at *11—12 (D.D.C. Apr. 10, 2020) (“The only proper defendant for an FTCA claim is the United
States.”); Johnson v. Veterans Affairs Med. Ctr., 133 F. Supp. 3d 10, 17 (D.D.C. 2015) (“Even if
a federal agency may sue and be sued in its own name, FTCA claims against that federal agency
are barred.... Failure to name the United States as the defendant in an FTCA action requires
dismissal for lack of subject-matter jurisdiction.”) (internal citations omitted). Additionally, the .
FTCA does not apply to “[a]ny claim arising in a foreign country.” 28 U.S.C. § 2680(k). This
so-called foreign country exception applies to all claims that are based on an injury a plaintiff
suffered in a foreign country, “regardless of where the tortious act or omission occurred.” Sosa
v. Alvarez-Machain, 542 U.S. 692, 712 (2004); see also Harbury v. Hayden, 522 F.3d 413, 423
(D.C. Cir. 2008) (holding that the FTCA barred a widow’s claim for emotional distress because
the injury “at the root of the complaint” occurred in a foreign country).
For at least two reasons, then, an amendment to include an FTCA claim would be futile.
First, it would be improper as a technical matter because the United States is not a defendant in
the suit or named as a new potential defendant. See Goddard v. D.C. Redevelopment Land
Agency, 287 F.2d 343, 345-46 (D.C. Cir. 1961) (“Suits based on torts allegedly committed by
the Agency or by its employees acting in an official capacity are maintainable, if at all, under the
provisions of the Tort Claims Act, and must name the United States as a defendant.") (emphasis
added). Even if the United States were proposed as a defendant to this claim, Plaintiffs claim
falls squarely within the FTCA’s foreign country exception. Plaintiff’s alleged detainment and
torture occurred at the Narashino Police Detention Center in Japan. Pl.’s Mot. to Am. T] 8.
Plaintiff argues that the destruction of the photographs and records “resulted in Plaintiffs
inability to present a claim against Japanese officials in U.S. federal court.” Pl.’s Reply 37. But

14

48

j

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 15 of 18

even when fully crediting Plaintiffs allegations, the root of Plaintiffs complaint is that he
suffered injuries in Japan, see id. ^ 19. The Court will therefore deny as futile leave to amend to
include an FTCA claim. 8
3. Potential Common Law Tort Claims
It may also be possible to construe Plaintiffs filings as alleging a common law tort claim
(e.g., destruction of property or negligence) against Mr. Ogier in his individual capacity.
However, Plaintiff does not cite to any authority or allege any specific facts indicating that the
Court would have jurisdiction over Mr. Ogier in his individual capacity with respect to a tort
allegedly committed in Japan. To sue a federal employee in an individual capacity, the Court
must have personal jurisdiction over the federal employee based on the employee’s personal
contacts within the District. See Dougherty v. United States, 156 F. Supp. 3d 222, 229 (D.D.C.
2016). While Plaintiff suggests that Mr. Ogier is still employed by the Department of State in
Washington, D.C., see Supplemental Decl. of Jack Stone 20, 26, ECF No. 80, that connection
alone is insufficient, see Dougherty, 156 F. Supp. 3d at 229 (noting that a court does not have
personal jurisdiction over a federal employee simply because the employing agency is

8

Plaintiff also has not alleged that he complied with the FTCA’s exhaustion requirement.
See 28 U.S.C. § 2675. Under Circuit precedent, a failure to exhaust administrative remedies
under the FTCA is a jurisdictional defect. See Smith v. Clinton, 886 F.3d 122, 127 (D.C. Cir.),
cert, denied, 139 S. Ct. 459 (2018); see also Parrish v. United States, No. 17-cv-70, 2020 WL
1330350, at *3 (N.D. W. Va. Mar. 23, 2020) (suggesting that the FTCA exhaustion requirement
remains jurisdictional even in the wake of Fort Bend County v. Davis, 139 S. Ct. 1843 (2019)).
Plaintiffs “failure] to allege that [he] satisfied the requirement that [he] exhausted]
administrative remedies before filing an FTCA claim” would require dismissal. Achagzai v.
Broad. Bd. of Governors, 109 F. Supp. 3d 67, 69-70 (D.D.C. 2015). Additionally, under the
FTCA’s statute of limitations, claimants must present claims to a federal agency “within two
years after such claim accrues.” 28 U.S.C. § 2401 (2018). Although Plaintiffhas not indicated
when he discovered that the photos were deleted, the record indicates that Plaintiff knew the
photos were deleted at least two years before this claim was brought, which suggests it would be
time barred. See PL’s Mot. to Amende 33.
15

49

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 16 of 18

headquartered in the District of Columbia). Even if Plaintiff could allege more specific facts
suggesting personal jurisdiction, under the Westfall Act, a federal individual employee is
generally immune from tort liability for torts committed within the scope of employment. See 28
U.S.C. § 2679(b)(1). This is true even if a provision of the FTCA prevents the plaintiff from
recovering monetary damages from the United States itself. See United States v. Smith, 499 U.S.
160, 165 (1991). In these circumstances, therefore, the Court fails to see a viable common law
claim against Mr. Ogier. To the extent that such a claim was raised, the Court will deny leave to
amend the complaint to include one. And because Plaintiff has not articulated a non-futile claim
against Mr. Ogier, the Court will deny leave to add him as a defendant in this matter.
D. Motion to Compel Issuance of Plaintiff’s Wife’s Visa
Finally, Plaintiff seeks to add a claim for an order to compel the Department of State to
issue a visa for his wife. See Pl.’s Motion to Compel Issuance of Plaintiff’s Wife’s Visa, ECF
No. 82. Without support, Plaintiff claims to have paid more than $2,000 during the process of
obtaining his wife’s visa. Id. K 2. Plaintiff claims that after he and his wife met with officials at
the USC1S Kendall Field Office in Miami, Florida and paid $1,250 to expedite the visa process,
he and his wife waited for a final interview for his wife’s visa to take place in the U.S. Embassy
Tokyo in Japan. See id. 4; Pl.’s Aff. 5-6.
The Court construes Plaintiffs request as a request for a writ of mandamus. Under 28
U.S.C. § 1361, the district courts “have original jurisdiction of any action in the nature of
mandamus to compel an officer or employee of the United States or any agency thereof to
perform a duty owed to the plaintiff.” A mandamus remedy is drastic and should be “invoked
only in extraordinary circumstances.” AHA v. Burwell, 812 F.3d 183, 189 (D.C. Cir. 2016)
(quoting Power v. Barnhart, 292 F.3d 781, 784 (D.C. Cir. 2002)). For a court to issue a remedy

16

50

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 17 of 18

of mandamus, a plaintiff must show “(1) a clear and indisputable right to relief, (2) that the
government agency or official is violating a clear duty to act, and (3) that no adequate alternative
remedy exists.” Id.
The Court does not need to go into an analysis of the specific factors outlined in
Telecomms. Research & Action Ctr. v. FCC, 750 F.2d 70 (D.C. Cir. 1984), which courts use to
consider whether an agency’s delayed action warrants mandamus, because the Court cannot
grant Plaintiff's requested relief. The Court can only direct an agency to “take action upon a
matter, without directing how [the agency] shall act.” Aidovv. U.S. Dep’t Homeland Sec., No.
20-cv-20649, 2020 U.S. Dist. LEXIS 39458, at *13 (S.D. FI. Mar. 5, 2020) (quoting Norton v. S.
Utah Wilderness All., 542 U.S. 55, 64 (2004)). At most, the Court could only issue a mandamus
to the Department of State to take action on the visa application, but could not order the
Department of State to approve the application and issue Plaintiff's wife’s visa, as Plaintiff has
requested. See id. Furthermore, Plaintiff has not persuasively argued a basis for this Court to
order the Department of State to complete the process and schedule an interview absent payment
of the required fees. As such, the Court will deny as futile Plaintiffs request for leave to amend
his complaint to include a motion to compel issuance of his wife’s visa.
V. CONCLUSION
For the foregoing reasons, the Court will grant in part and deny in part Plaintiff’s filings,
which the Court has construed as motions to amend. The Court will allow Plaintiff to amend his
complaint to include a request for an order to compel U.S. citizenship for his second-bom child.
The Court does not grant leave to amend the complaint to include all of Plaintiff s other filings
and requests. Within thirty days (that is, on or before August 24, 2020), Plaintiff shall file a
Third Amended Complaint that outlines his exact claims and requested relief. Plaintiffs new

17

51

Case l:19-cv-03273-RC Document 160 Filed 07/24/20 Page 18 of 18

claim will have no impact on the claim regarding Plaintiffs first-born child's passport, which, as
mentioned, is currently the subject of separate summary judgment briefing. An order consistent
with this Memorandum Opinion is separately and contemporaneously issued.
Dated: July 24, 2020

RUDOLPH CONTRERAS
United States District Judge

18

52

Case l:19-cv-03273-RC Document 230 Filed 11/16/20 Page 1 of 1

UNITED STATES DISTRICT COURT
TOR THE DISTRICT OF COLUMBIA
JACK STONE.
Plaintiff,

Civil Action No.:

19-3273 (RC)

v.

Rc Document Nos.:

154. 171. 186

U.S. EMBASSY TOKYO, ct at..

Defendants.
ORDER
Denvinc Plaintiff's Motion for Leave to AmenoTihkd Amended Complaint:
Denying Pontiff's Motionto Join: Granting Defendants* Motion to Dismiss
For the reasons stated in the Court’s Memorandum Opinion separately and
contemporaneously issued. Plaintiff's motion for leave to amend the third amended complaint
(ECF No. 171) is DENIED; Plaintiffs motion to join Jennifer Wooton as a defendant (ECF No.
154) is DENIED; and Defendants’ motion to dismiss (ECF No. 186) is GRANTED.
SO ORDERED.
RUDOLPH CONTRERAS
United States District Judge

Dated: November 16,2020

53

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Motion for Reconsideration
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 1/8/2021 at 4:59 PM EDT and filed on
1/8/2021
STONE v. U.S. EMBASSY TOKYO et
Case Name:
al
Case Number:
1:19-cv-03273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [238] Plaintiff's Motion for Reconsideration: Plaintiff
asks the Court to reconsider [226] its order granting Defendants summary
judgment, but he presents no reason not previously addressed by the Court that
would justify reconsideration. Accordingly, his motion is DENIED. SO ORDERED.
Signed by Judge Rudolph Contreras on 1/8/2021. (Icrcl)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoi.aov
JACK STONE mail@stackjones.com

54

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Motion for Reconsideration
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box Is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 1/19/2021 at 9:04 AM EDT and filed on
1/19/2021
STONE v. U.S. EMBASSY TOKYO et
Case Name:
al
Case Number:
1:19-cv-03273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [241] Plaintiffs Motion for Reconsideration: Claiming to
have new information that this Court did not consider in [226] its order granting
Defendants summary judgment, Plaintiff asks the Court to reconsider that ruling.
Specifically, Plaintiff says he recently received an employment offer that he will
have to decline unless the Court grants the relief he seeks. See ECF No. 241. But
in an APA suit like Plaintiff's, the Court's review is limited to "the full
administrative record that was before the [agency] at the time [it] made [its]
decision." Citizens Pres. Overton Park, inc. v. Volpe, 401 U.S. 402,420 (1971). The
Court cannot consider a development that occurred after the agency action that
Plaintiff challenges. Accordingly, Plaintiffs motion for reconsideration is DENIED.
SO ORDERED. Signed by Judge Rudolph Contreras on 1/19/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoj.aov
JACK STONE mail@stackjones.com

55

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Motion for Order to Show Cause
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:32 PM EDT and filed on
2/22/2021
STONE v. U.S. EMBASSY TOKYO et
Case Name:
al
Case Number:
1:19-cv-03273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [209] Plaintiff's Motion for Order to Show Cause: On
October 11,2020, Plaintiff requested Defendants show cause as to why Goldman
Act sanctions have not been issued against Japan. Pl.’s Mot. for Order to Show
Cause, ECF No. 209. The Goldman Act does not create a private right of action,
see 22 U.S.C. * 9101, etseq., and Plaintiff cannot compel the Department of State
to impose sanctions on Japan as such determination is within the discretion of
the Department of State, see id. o 9122(b)(2). Therefore, it is hereby ORDERED
that [209] Plaintiffs Motion for Order to Show Cause is DENIED. SO ORDERED.
Signed by Judge Rudolph Contreras on 2/22/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.paimer-ball@usdoj.aov
JACK STONE mail@stackjones.com

56

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Motion for Miscellaneous Relief
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:26 PM EDT and filed on
2/22/2021
Case Name:
Case Number:
Filer:
Document
Number:

STONE v. U.S. EMBASSY TOKYO et
al
1:19-cv-03273-RC
No document attached

Docket Text:
MINUTE ORDER denying [195] Defendants' Motion to Be Excused from
Responding to Plaintiff's Future Motions Unless Directed by the Court: Because
the substantive motions in this case have been decided and are currently on
appeal, it is hereby ORDERED that Defendants' motion for relief from responding
to Plaintiff's motions is DENIED as moot. SO ORDERED. Signed by Judge
Rudolph Contreras on 2/22/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoi.gov
JACK STONE mail@stackjones.com

57

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et ai Order on
Motion to Unseal Document
To: DCD_ECFNotice@dcd.usCourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:17 PM EDT and filed on
2/22/2021
STONE v. U.S. EMBASSY TOKYO et
Case Name:
al
Case Number:
1:19-cv-03273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [157] Plaintiff's Motion to Unseal: On July 19, 2020,
Plaintiff asked this Court to unseal certain records relevant to potential claims
against Senator Brian Schatz and a member of his staff. PL's Mot. to Unseal, ECF
No. 157. The Court denied Plaintiff's motion to join Senator Schatz and the staff
member as defendants, see ECF No. 231, at 6-9, so the motion is moot.
Accordingly, it is hereby ORDERED that [157] Plaintiff's Motion to Unseal is
DENIED. SO ORDERED. Signed by Judge Rudolph Contreras on 2/22/2021. (Icrd)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoi.gov
JACK STONE mail@stackjones.com

58

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Sealed Motion
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:14 PM EDT and filed on
2/22/2021
Case Name:
Case Number:
Filer:
Document
Number:

STONE v. U.S. EMBASSY TOKYO et
al
1:19-cv-03273-RC
No document attached

Docket Text:
MINUTE ORDER denying [110] Plaintiff's Motion for Partial Summary Judgment
and [156], [183] Plaintiff's Motions to Compel: Plaintiff demands that Defendants
issue him a consular report of birth abroad and other citizenship documents for
his second-born minor child. See Pl.'s Mot. for Partial Summ. J., ECF No. 110;
PL's Mot. to Compel, ECF No. 156; Pl.'s Mot. to Compel, ECF No. 183. But the
Court has dismissed Plaintiff's claim regarding citizenship documents for his
second-born child. See ECF No. 230; ECF No. 231, at 4-6,12-17. Therefore, it is
hereby ORDERED that [110] Plaintiff's motion for partial summary judgment and
[156], [183] Plaintiff's motions to compel are DENIED. SO ORDERED. Signed by
Judge Rudolph Contreras on 2/22/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoj.gov
JACK STONE mail@stackjones.com

59

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et ai Order on
Motion for Order
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:09 PM EDT and filed on
2/22/2021
STONE v. U.S. EMBASSY TOKYO et
Case Name:
al
Case Number:
1:19-cv-03273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [141], [164], [202], and [223] Plaintiffs Motions for a
Passport for His First-Born Child: Plaintiff has repeatedly requested that the
Court compel the issuance of a passport to his first-born child and explain why
the passport has not already been issued. See ECF Nos. 141,164, 202, 223. The
Court has denied Plaintiff relief on the first-born child's passport issue and
explained its ruling in detail, see ECF No. 226; ECF No. 227, so these motions are
moot. Accordingly, it is hereby ORDERED that [141], [164], [202], and [223]
Plaintiff's motions requesting a passport for his first-born child are DENIED. SO
ORDERED. Signed by Judge Rudolph Contreras on 2/22/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoj.gov
JACK STONE mail@stackjones.com

60

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Motion to Compel
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:05 PM EDT and filed on
2/22/2021
STONE v. U.S. EMBASSY TOKYO et
Case Name:
al
Case Number:
1:19-cv-Q3273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [138] Plaintiffs Motion to Compel: On June 25, 2020,
Plaintiff alleged that Defendants wrongfully placed his "firstborn chtldQ and
perhaps his second child... into a passport protection program." Pl.'s Demand at
1, ECF No. 138. His filing argued that the alleged action contributed to
Defendants' improper denial of a passport for his first-born child. See id. at 12.
The Court has denied relief on the first-born child's passport issue, see ECF No.
226; ECF No. 227, so Plaintiff's motion is moot. Therefore, it is hereby ORDERED
that the motion is DENIED. SO ORDERED.Signed by Judge Rudolph Contreras on
2/22/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.Dalmer-ball@usdoi.dov
JACK STONE mail@stackjones.com

61

DCD_ECFNotice@dcd.uscourts.gov
Activity in Case 1:19-cv-03273-RC STONE v. U.S. EMBASSY TOKYO et al Order on
Motion to Compel
To: DCD_ECFNotice@dcd.uscourts.gov
This is an automatic e-mail message generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the mail box is unattended. ***NOTE TO
PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is
required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first
viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 2/22/2021 at 8:01 PM EDT and filed on
2/22/2021
STONE v. U.S. EMBASSY TOKYO et al
Case Name:
Case Number:
1:19-cv-03273-RC
Filer:
Document
No document attached
Number:
Docket Text:
MINUTE ORDER denying [139] Plaintiffs Motion to Compel, [180] Plaintiffs
Motion for Clarification, and [201] Plaintiffs Motion for Return Order: Plaintiff has
filed a motion requesting relief under the Hague Convention, see ECF No. 201,
and another motion demanding that Defendants turn over records related to
filings he made with them concerning the Convention, see ECF No. 139. After the
Court denied as futile Plaintiffs motion to add to his complaint a Hague
Convention claim, see ECF No. 159; ECF No. 160, Plaintiff also filed a motion for
clarification on the ruling, see ECF 180. Because the Court denied Plaintiff leave
to bring the claim and there is nothing of substance to add to the reasoning it
gave for doing so, see ECF No. 160, at 5-7, it is hereby ORDERED that [139], [180],
and [201] Plaintiffs motions regarding the Hague Convention are DENIED. SO
ORDERED. Signed by Judge Rudolph Contreras on 2/22/2021. (Icrc1)
1:19-cv-03273-RC Notice has been electronically mailed to:
Katherine Boyd Palmer-Ball katherine.palmer-ball@usdoi.gov
JACK STONE mail@stackjones.com

62

APPENDIX
Court of Federal Claims

63''

Case 1^0-cv-01173-TMD Document 31 Filed 01/22/21 Page lot 2

In the United States Court of Federal Claims
No.'20-1173
(Jailed: January 22. 2021)
4444*44*44*44*4*444«4444t*«4*ft4444#44**

JACK STONE.
Plaintiff.
v.
HIE UNITED STATES.
Defendant.
ORDER AND OPINION

DIETZ. Judge.
On January 4.2021. Plaintiff moved for permisxkm to uve the Ca«c
Management'Electronic Case Fites (“CMliCF") system for filing purposes. ECF No. IS.
Raimi IT daims that restricting access to CMTiCF creates an unequal playing field for pro sc
plaintiffs. id. at 2-1. Defendant filed its response to Plaintiffs on January li. 2021. wlwrein
Defendant requeued the Court deny Plaintiffs request for access to CM/ECF on grounds that
Plaintiff has not established that the Court's existing procedures are inadequate, demonstrated
prejudice to Plaintiffs Ability to litigate the case, or identified any circumstances that warrant
departure from the Court’s existing procedures. Roiniiff filed a reply on January 12.2021.
tvhercin Plaintiff restated his initial claim that refirkting access to CM/ECF bv prose plaintiffs
is prejudicial.
This Court generally requires pro sc plaintiffs to file documents through U,$. mail or by
deposit in the Court’s night box located at the garage entrance onH Street N\V between lith
Street and Madison Place. Under this system, the Cleric’s office reviews documents filed by pro
st plaintiffs prior to uploading into the CM^-CT system to: prevent excessive, frivolous filings:
ensure correctly labeled documents; confirm adherence toCourt rules and orders: and maintain
an rxgantrad docket. On rare occasion, the Court may grant a prose plaintiff access to CM/HCf;
bower, use ofa CM1:CF account is largely restricted to licensed attorneys.
In response to the COV1D-I9 pandemic. this Court adopted modified procedures that
allow pro sc plaintiffs to file documents electronically via email. Pro sc plaintiffs may also
consent to receive service through the CM/ECF system and notification by email when
documents are electronically uploaded into the OH-CF system. Stv General Order. 1-2 VJ 2*4
(Mar. IS. 20201 ECF No. 5 (“General Order**). These modified procedures provide prose

64

Case l:20-cv-0U73-TMD Document 31 F8ed 01/22/21 Page 2 of 2

plaintiffs with the ben efits of electron b films (except for lac ability to upload documents directly
inio CMECF). AdditionalI)-, pro sc plaintiffs can regiserwith Public Access to Court
Electronic Records (“PACER"*) to receive notice of docket activity. These privileges maybe
revoked if a pro se ptaintiiT“siibrnits frivolous submissions or does not comply with the
submission guidelines" contained in ihe General Oder. Id. at t.
In this ease. Plaintiff fully utilized the electronic filing procedures granted to pro sc
plaintiffs under the General Order. See ECFNfos. 10. I& 22. 26.30. Plaintiff also consented to
receive notification by email when documents are e&rtronkaly uploaded into the CMTICF
system. See ECFNo. 7. PlamtHT s only Iimitation resiling from not being able to file
documents using CMTiCFisthc mablrty to upload documents directly into the docket The
Court finds that these immediate circumstances do not present sufTiricm justification for making
an exception to the Court's usual filing procedures for prose plaintiffs.
With respect to Plants iTs use of the eketroroe filing procedures. Plaintiff repeatedly
(ailed to comply with the Genera! Onto. Between January S. 202! and January 21. 2021.
Plaintiff filed several noncomplem documents via emaiL including: a response to “appellee's"
motion for extension of lime (presumedly meant to be filed in the United States Cotrrt of Appeals
for the District ofColumbia Ctmiit). a “declaration'" of a two-year employment contract, and a
response to Defendant’s reply on a motion to dsmis.See ECFNos. 24.2S-29. Additionally, on
January 21. 2021. Plaintiff sent an explicit and inapp repast email to the Clerk's office without
any documents attached. These filaes were not made pursuant to a Court rule, m response to a
Court order, or otherwise in accordance with the General Order.
Hot the reasons set forth above, the Court DENIES PhtmtfTs Motion to Use the
CMTiCF system. Additionally, because of Plaintiff s failure to comply with the General Oder.
RamtiCTs electronic filing privileges are hereby REVOKED. Plaintiff shall submit aH future
documents in this case through U.S. Mai! orb)* deposit in the Court's fright box located at the
garage entrance on H Street NW. between I5ih Street end Madison Place. The Clerk is directed
to reject further filings submitted electronically by Plaintiff in this case.
IT IS SO ORDERED.
sCThomrepn.MJDictz
THOMPSON M. DIETZ. Judge

65

APPENDIX
Japan Hague Convention
Central Authorities

66

(Translation)

Date: September 3, 2019
Case No. A-19115
To: Mr. Jack Stone
Minister for Foreign Affairs
(Official seal)

Notice of Dismissal of Application for Assistance
I hereby inform you that your Application for Assistance in Child’s Return to Foreign
State (Case No. A-19I15) has been dismissed on the grounds that the application falls
under Article 7 (1) (iv) of the Act for Implementation of the Convention on the Civil
Aspects of International Child Abduction (the “Act”).
* If you are dissatisfied with this decision, you may file an objection with the Minister
for Foreign Affairs within three months from the next day of the date on which you are
notified of this decision, in accordance with Article 2 of the Administrative Appeal Act
(Act No. 68 of 2014) (you may not file an objection, except where there are justifiable
grounds, during this three-month period if one year has elapsed from the next day of the
decision by then).
If you request to have this decision revoked, you may file an action against the State
(to be represented by the Minister of Justice in litigation) for the revocation of this
decision within six months from the date on which you are notified of this decision, in
accordance with Article 3, (2) of the Administrative Case Litigation Act (Act No. 139 of
1962) (you may not file an action for the revocation of this decision, except where there
are justifiable grounds, during this six-month period if one year has elapsed from the
date of the decision by then).

[Contacts]
Chie Mackoya and Ayae Sese
Hague Convention Division
Consular Affairs Bureau
Ministry of Foreign Affairs
2-2-1 Kasumigascki, Chiyoda-ku, Tokyo, Japan
100-8919

67

(Translation)

Tel: +81-(0)3-5501-8466
Fax: +81 -(0)3-5501 -8527
Email: hague02@mofa.go.jp
* Please be sure to indicate the ease number in your inquiries.

68

APPENDIX
Sendai Family Court

69

m'-m 3lf <&n) © 1 0 0 8^ gl 0 0 9f

y-o?niu) w

Stf.A &* mt,%r
ffl-f'A'
v-^yp

$ ft ^ T I 3® §
iiflasu

* h~>

m
TO 8 0-8 6 3 7

-6-1 .

^■tMSE'b' B3 &*?tSS&4> 022-745-6214 ;

PAX -g* •£ 022-2G5-6S22

<t?ii£4in i

70

l ") B. JfitTtfliJ: 9fc*f LA^Tfctal,

APPENDIX
Florida
Second District Court of Appeals

71

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
JACK STONE,
)
)
)
)
)
)
)
)

Appellant,
v.
MIYUKI SUZUKI
Appellee.

Case No. 2D20-451

Opinion filed December 23, 2020.
Appeal from the Circuit Court for Highlands
County; Kelly P. Butz, Judge.
Jack Stone, pro se.
No appearance for Appellee.

CASANUEVA, Judge.
Jack Stone challenges the circuit court's order that dismisses his Motion
for Ex Parte Emergency Child Custody and all subsequent pleadings for lack of
jurisdiction. The primary issue in this appeal is whether the Highlands County Circuit
Court has subject matter jurisdiction under the Uniform Child Custody Jurisdiction
Enforcement Act (UCCJEA), sections 61.501-542, Florida Statutes (2019), to
determine this international child custody dispute. Mr. Stone contends that before his
wife, Miyuki Suzuki, took the parties’ child to Japan without his consent, Florida was the

72

child's home state, and therefore Florida law should apply. He claims that he was
deprived of due process by the circuit court’s denial of an evidentiary hearing so that he
could be heard on this issue. We reverse and remand for Mr. Stone to have the
opportunity to present his case for subject matter jurisdiction.
Mr. Stone, a U.S. citizen, alleged in his motion for emergency temporary
custody that his wife, a Japanese national, took the parties’ child, M.S., with her to
Japan without Mr. Stone's consent. According to Mr. Stone, in November 2018 he was
on a trip to Japan to renew his spousal visa when Ms. Suzuki boarded a plane in
Orlando with the parties' son and fled the country on the day she anticipated her
husband would return to Florida. Mr. Stone cancelled his return flight after his sister
alerted him to his wife's plan to return to Japan. After struggling for a couple of months
to locate his son, he regained physical custody of M.S., but he has been unable to
return to the United States with the child because his wife destroyed the child's U.S.
passport.
Mr. Stone has filed numerous motions and petitions in the Highlands
County Circuit Court. He sought a return order under the Hague Convention,1 custody
of M S. under the UCCJEA, custody of a second child that was born after the wife

’The Hague Convention on the Civil Aspects of International Child
Abduction, Oct. 25, 1980, T.I.A.S. No. 11670, 1343 U.N.T.S. 89 (July 1, 1988), is an
international treaty to which the United States and Japan are signatories. See De
Carvalho v. Carvalho Pereira. No. 1D20-523, 2020 WL 6706877, *1 (Fla. 1st DCA Nov.
16, 2020). The Hague Convention is implemented in the United States by the
International Child Abduction Remedies Act (ICARA) at 22 U.S.C. §§ 9001-9011
(2018). The Convention's primary function is to provide a process through which a
parent may seek the prompt return of a child who has been wrongfully removed to or
retained in another country. See Abbott v. Abbott. 560 U.S. 1, 9 (2010) ("The
Convention’s central operating feature is the return remedy.")
-2-

73

returned to Japan, and a change of M.S.'s name. He also filed suit in the United States
District Court, District of Columbia, to compel the Department of State to issue M.S. a
new passport without Ms. Suzuki's consent.2 See 22 C.F.R. § 51.28 (2019) (requiring
execution of a passport application by both parents unless a parent can provide
documentary evidence or a court order showing that he or she has sole custody of the
child or that the nonapplying parent consents to the issuance of the passport).
The circuit court denied Mr. Stone's motion for temporary custody and
various other pleadings because Mr. Stone could not establish that Florida was the
child's "home state" under sections 61.503(7) and 61.514(1 )(a). The court noted in its
order that the child was bom in Japan and was presently in Japan and that therefore, a
Japanese court was the proper tribunal in which Mr. Stone must seek custody. In its
order, the circuit court stated as follows:
The home state determination under the Uniform Child
Custody Jurisdiction and Enforcement Act (UCCJEA) allows
for Florida to exercise jurisdiction if, if at any time within the
six months preceding the filing of the petition, Florida qualified
as the home state of the minor child. See Fla. Stat. §
61.503(7): see also $ 61.514(1)(a). Petitioner filed a
UCCJEA Affidavit demonstrating Florida does not qualify as
the home state of the minor child. The child was bom in
Japan and is currently in Japan, and has been since at least
January 2, 2019. Furthermore, Petitioner's various pleadings
assert that another tribunal has accepted jurisdiction and
2See Stone v. U.S. Embassy Tokyo. No. 19-3273 (RC), 2020 WL 6701078
(D.D.C. Nov. 12, 2020) (denying Stone's motions that challenged the administrative
order denying his application for the minor child's passport); see also Stone v. U.S.
Embassy Tokyo (Stone I), No. 19-3273 (RC), 2020 WL 4260711 (D.D.C. July 24,
2020) (denying motions for leave to amend his complaint to include a petition for a
return order); Stone v. U.S. Embassy Tokyo (Stone II), No. 19-3273 (RC), 2020 WL
5653699 (D.D.C. Sept. 23, 2020) (denying motion for recusal); Stone v. U.S. Embassy
Tokyo (Stone III), No. 19-3273 (RC), 2020 WL 5775196 (D.D.C. Sept. 28,
2020) (granting defendants' motion for leave to submit portions of the administrative
record under seal).
-3-

74

awarded Petitioner physical custody of the minor child.
Accordingly, this Court lacks jurisdiction over the matter.
Mr. Stone's second amended complaint acknowledges that his son was
bom in Japan and that the family lived there for the child's first four years. However, he
explains that in 2018 the parties made the decision to move to the United States. In
March 2018, after visiting family in Hawaii, Mr. Stone, his wife, and son came to Florida.
He contends that he has significant connection with this state because he grew up in
Florida, has family in this state, and had been residing in Florida for the eight months
before his wife abducted the parties' child. On his UCCJEA affidavit he lists his
residences as Miami from March 18, 2018, to October 9, 2018, and Sebring from
October 9, 2018, to the date of filing, September 9, 2019. However, his pleadings show
that the family has been in Japan since November of 2018. It is because of the child's
long absence from the state that the circuit court declined to exercise jurisdiction.
Mr. Stone’s request for a Return Order under the Hague Convention
First, we address Mr. Stone's request for an Order of Return under the
Hague Convention. He argues that the circuit court erred in failing to address his return
order request and in proceeding under chapter 61 of the Florida Statutes.
A return order under the Hague Convention requires that an abducted
child be brought back to the child's country of habitual residence, and then it is left to the
courts of that nation to determine matters involving the child's custody. See Wialev v.
Hares. 82 So. 3d 932, 943 (Fla. 4th DCA 2011) (citing Cuellar v. Joyce. 596 F. 3d 505,
508 (9th Cir. 2010)); see also 22 U.S.C. § 9001(b)(4) (2018) ("The Convention and this
chapter empower courts in the United States to determine only rights under the
Convention and not the merits of any underlying child custody claims."). Under the
-4-

75

Convention, "a court in the abducted-to nation has jurisdiction to decide the merits of an
abduction claim, but not the merits of the underlying custody dispute." Friedrich v.
Friedrich. 78 F.3d 1060,1063 (6th Cir. 1996) (emphasis added) (citations omitted). The
Convention "is generally intended to restore the pre-abduction status quo.and to deter
parents from crossing borders in search of a more sympathetic court." Id at 1064
(citations omitted).
Although the circuit court did not make written findings addressing Mr.
Stone’s request for a return order, we conclude that Mr. Stone’s request was properly
denied. Under 22 U.S.C. § 9003(b), a person seeking to initiate judicial proceedings
under the Convention for the return of a child must file a petition "in the place where the
child is located at the time the petition is filed." Mr. Stone recognizes that he was
required to obtain a return order in Japan but explains that he has sought relief in this
country because his efforts to obtain a return order from the authorities in Japan were
unsuccessful.
We agree that "[pjersons should not be permitted to obtain custody of
children by virtue of their wrongful removal or retention." 22 U.S.C. § 9001(a)(2).
However, as the federal court found, the terms of the Convention do not provide for
jurisdiction in the United States because the child is presently in Japan. See Stone v.
U S. Embassy Tokyo. No. 19-3273 (RC), 2020 WL 4260711, *3 (D.D.C. July 24, 2020)
(denying Mr. Stone's request to amend his complaint to add a request for a return order
on the grounds that under ICARA a person seeking to initiate judicial proceedings under
the Convention for the return of a child must file the petition "where the child is located
at the time the petition is filed" (citations omitted)). The federal court "acknowledge[d]

-5-

76

the apparent unfairness of the situation" but found that it was "powerless to remedy it."
Id. at *4. Accordingly, the circuit court was correct in denying Mr. Stone's return order
petition and properly required Mr. Stone to proceed with his request for custody by filing
an affidavit under the UCCJEA.
The Uniform Child Custody Jurisdiction Enforcement Act
The UCCJEA was promulgated to help avoid jurisdictional conflict and to
promote cooperation between courts in resolving custody issues. See § 61.502(1), (2).
The objective of the Act is to eliminate the simultaneous exercise of jurisdiction over
custody disputes by more than one state. Karam v. Karam. 6 So. 3d 87, 90 (Fla. 3d
DCA 2009). For purposes of applying the UCCJEA to an international custody dispute,
"[a] foreign country is treated as a state of the United States for jurisdiction purposes."
Lande v. Lande. 2 So. 3d 378, 381 (Fla. 4th DCA 2008) (citing § 61.506(1)); Ariona v.
Torres. 941 So. 2d 451, 454 (Fla. 3d DCA 2006) (same). "The UCCJEA gives
jurisdictional priority to the child's home state."3 Hindle v. Fuith. 33 So. 3d 782, 784
(Fla. 5th DCA 2010) (citing Ariona. 941 So. 2d at 455). "[T]he issue of whether the
Florida circuit court has subject matter jurisdiction under the UCCJEA involves a
question of law and is subject to de novo review." N.W.T. v. L.H.D.. 955 So. 2d 1236,
1238 (Fla. 2d DCA 2007).

3Section 61.503(7) defines "home state" as "the state in which a child lived
with a parent or a person acting as a parent for at least 6 consecutive months
immediately before the commencement of a child custody proceeding." See MAC, v.
M.D.H.. 88 So. 3d 1050, 1054 (Fla. 2d DCA 2012) (noting that the "home state"
determination under the UCCJEA allows for Florida to exercise jurisdiction if, at any
time within the six months preceding the filing of the petition, Florida qualified as the
home state).
-6-

77

In the present case, the circuit court found that it lacked jurisdiction under
the UCCJEA because Florida was not the child's home state. We agree with the circuit
court that Mr. Stone did not allege sufficient facts to establish that Florida was the child's
home state under sections 61.503(7) and 61.514(1 )(a). At the time Mr. Stone filed his
custody proceeding in Florida on September 9, 2019, he and his family had been living
in Japan for the preceding ten months. However, we note that the UCCJEA grants
several exceptions to the home state jurisdictional requirement, such as when a court of
another state does not have jurisdiction or has declined to exercise its jurisdiction. See
§ 61.514(1 )(c), (d); see also. e.Q.. Hindle. 33 So. 3d at 785 (holding that under the
UCCJEA the Florida court had subject matterjurisdiction to make an initial custody
determination even though Florida was not the child’s home state where the mother and
the child had lived in several states in the six months prior to their arrival in Florida and
the commencement of the paternity action and no other state had jurisdiction); Ariona
941 So. 2d at 455 (noting that Florida could exercise jurisdiction based upon the child’s
connections with the state if the child's home state declined to exercise jurisdiction).
Mr. Stone argues that the circuit court erred in not applying the emergency
jurisdiction exception in section 61.517(1), which states,
A court of this state has temporary emergency jurisdiction if the
child is present in this state and the child has been abandoned or it
is necessary in an emergency to protect the child because the
child, or a sibling or parent of the child, is subjected to or
threatened with mistreatment or abuse.
The circuit court did not err in failing to apply this subsection. In order for section
61.517(1) to apply, the child must be present in the state where the petition is filed. Cf.
McAbee v. McAbee. 259 So. 3d 134, 139 (Fla. 4th DCA 2018) (determining that the trial

-7-

78

court had emergency jurisdiction in Florida, despite the fact that Virginia was the child's
home state, because the child was physically present in Florida when the mother filed
the emergency petition); In re NC. 294 P.3d 866, 874 (Wyo. 2013) ("[T]he only
requirements for a state to exercise emergency jurisdiction pursuant to the UCCJEA are
that the child be present in the state and that the child be subjected to or threatened
with abuse.1’).
Mr. Stone also argues that there is no support for the circuit court's finding
that Japan has accepted jurisdiction of the custody dispute and therefore, Japan, and
not Florida, is the child's home state. The attachments to his motions reflect that Ms.
Suzuki withdrew her petition for custody in the Japanese family court and that the
petitions had been dismissed. He claims that the circuit court had a duty to
communicate with the Japanese court to confirm the lack of any continuing custody
proceedings in Japan.
We conclude that the circuit court prematurely denied Mr. Stone the
opportunity to prove that Japan had declined to exercise its jurisdiction over the custody
issue and that Florida was the more appropriate forum for either an initial custody
determination or a modification of custody. See Douolas v. Johnson. 65 So. 3d 605,
607-08 (Fla. 2d DCA 2011) (reversing and remanding for a full evidentiary hearing
where the mother was denied procedural due process by the trial court's failure to give
her the opportunity to raise and develop the issue of subject matter jurisdiction). At a
minimum, the court should have stayed the proceedings and communicated with the
Japanese court to determine whether custody proceedings in Japan had been
terminated. See § 61.519(1), (2); London v. London. 32 So. 3d 107, 110-11 (Fla. 2d

-8-

79

DCA 2009) (reversing for further proceedings where the trial court never communicated
with the foreign court as required by section 61.519).
Accordingly, we reverse and remand for further proceedings.

MORRIS and LABRIT, JJ , Concur.

-9-

80

APPENDIX
Florida
Highlands County Family Court

81

Filing # 95472321 E-Filed 09/10/2019 03:33:07 PM

IN THE CIRCUIT COURT OF THE TENTH JUDICIAL CIRCUIT
IN AND FOR HIGHLANDS COUNTY, FLORIDA
JACK STONE,

.
Case No.: 28-2019-DR-000903

Petitioner,
v.
MIYUKI SUZUKI,
Respondent.
ORDER DENYING MOTION FOR EX PARTE EMERGENCY CHILD CUSTODY
(WITHOUT PREJUDICE)
This cause is before the Court upon the Petitioner’s Motion for Ex Parle Emergency Child
Custody filed on September 9, 2019. The Court, having reviewed the Motion, case file, and
applicable law, finds as follows:
Petitioner’s ex parte Motion is unsworn, and therefore, legally insufficient. Additionally,
Petitioner has failed to file a Uniform Child Custody Jurisdiction and Enforcement Act Affidavit,
and the Motion itself asserts that another tribunal has accepted jurisdiction and awarded
Petitioner physical custody. Accordingly, the Court is unable to determine if Florida is the home
state of the child, and if this Court has jurisdiction over the matter.
It is hereby ORDERED AND ADJUDGED that Petitioner’s Motion for Ex Parte
Emergency Child Custody is hereby DENIED without prejudice to re-file a sufficient motion
correcting the above-referenced deficiencies.
DONE AND ORDERED at Sebring, Highlands County, Florida, on this /& *day of
September, 2019.

MICHAEL P. MCDANIEL, Circuit Judge
Copies to:
Jack Stone, Maison Sato 0101,2-2-15 Tsunogoro, Aoba, Sentfai, Miyagi, Japan 980-0874
MPM/nbc

Electronically Filed Highlands Case # 19000903FCAXMX 09/10/2019 03:33:07 PM

82

Filing # 120435833 E-Filed 01/28/2021 03:53:08 PM
IN THE CIRCUIT COURT OF THE TENTH JUDICIAL CIRCUIT
IN AND FOR HIGHLANDS COUNTY, FLORIDA
JACK STONE..
Case No.: 28-2019-DR-000903
Petitioner,

v.
M1YUKI SUZUKI.
Respondent.

NOTICE OF INTENT TO DISMISS
This matter came before the Court on the CourEs own motion. In a December 23. 2020
Opinion, the Second DCA remanded this case for an evidentiary hearing to allow Petitioner an
opportunity to prove that Japan declined to exercise its jurisdiction over the custody issue, and that
Florida is the more appropriate forum. An evidentiary hearing was scheduled for January 27, 2021.
and Petitioner failed to appear. The Order Selling Evidentiary Hearing forewarned Petitioner that
failure to appear may result in his petition being dismissed by the Court.
Accordingly, it is ORDERED that Petitioner shall have thirty (30) days from the date of (his
order to show cause why this matter should not be dismissed for failure to comply with the Order
Selling Evidentiary Hearing. Petitioner is cautioned that failure to comply with this order will
result in dismissal of this action.
DONE AND ORDERED at Sebring. Highlands County, Florida, on this
2021.

E>>

HER BEATdrefrcuit Judge

Copies to:
Jack Slone. Maison Saio #101. 2-2-15 Tsimogoro. Aohn-ku. Scndai-shi. Miynui-kcn. Japan 980-0074
Miyufci Suzuki. 2-1 -8 Monto -Maclii. Yonczawa. l:l: 992-0039

HB/nbc

83

day of January,

EXHIBIT A.
Below is a partial list of U.S. citizen children currently abducted into Japan,
and whose parent’s have received no aid whatsoever by the DOS “Office of
Children’s Issues.”

Baros, Sarah
Berg, Gunnar
Berg, Kianna
Bocchetti, Reon Sean
Bunnell, Anna Karen
Bunnell, Hannah Sakura
Burgess, Misoi Hime
Cameron, Stella Yoko Saya
Collins, Keisuke
Cooper, Soren Shou
Davtyan, Ishkhan Lio
Donaldson, Michiru Janice
Duke, Riki Joy
Endo, Amane Karen
Endo, Kai
Endo, Miyu Ophelia
Fukuda, Serena Miharu
Fukuyama, Mine Whitney
Gessleman, David Naru
Gessleman, Joshua Koa
Gherbetti, Julia
Gherbetti, Lauren
Halpern, Dylan
Hayes, Julia Lillian
Hickman, Hana Jean
Hickman, Saki Faith
Hirata, Koki
Ishida, Shanonyuma
Ito-Byrd, Aimi Rehanna
Johns, Takeshi Cole

84

Johns, Tetsuaki Wayne
Kimika, Sarah
Kinder, James
Kinder, Mizuki
Kinoshita, Wilson Atsushi
La Far, Genevieve Mariam
Lewis, Cody
Lewis, Jasmyn
Lui, Ezra
Martin, Jose
Massaquoi, Martin
Massaquoi, Sally Kikuchi
McCoy, Yuki Patrick
McPike, Kai Sugamoto
McPike, Koh Sugamoto
Meehan, Ashley Ayaka
Moline, Misaki
Morehouse, “Mochi” Atomu Imoto
Nagatomi, Joui
Nagatomi, Nina
Osar, Alicia Mari
Peterson, Diona Maria
Prager, Rui
Renzelman, Marcus
Rose, Kaia Sedona
Savoie, Isaac
Savoie, Rebecca
Sigal, Luna Kubota
Suzuki, Rion
Tanaka-Nielsen, Leo
Toland, Erika
Washington, Maximus Riku
Weed, Takoda
Weed, Tiana
Wong, Kaya Summer Xiao-Lian
Yoshida, Jack
Yoshida, Luke

85

EXHIBIT B.
To: Jack Stone <mail@stackjones.com>
From: Brian Prager <japanabductionrui@gmail.com>
RE: Contact the Author
To: Stack Jones
Brian Prager here. 1 got your message just today. I don’t receive frequent mail on this account any
more, which explains why 1 missed seeing it sooner.
I’m saddened to read this account of how you and your son have been mistreated by the Japanese;
and none of that is unfamiliar in character or unknown to me. 1 know, or used to know, a lot of
parents who have experienced similarly impossible struggles with the Japanese state. 1 have to be
truthful and say that out of frustration and impotence, 1 haven’t been in very regular contact with
the parent groups in some time.
It’s not that I am complacent, but rather that I am fully convinced that the response you got from
the US Department of State and its allied agencies in the US government is the definitive one.
They do not consider it in their interest and will not act outside of their self-defined interests to
protect or assist any US citizen victimized by the Japanese state. And 1 also believe firmly that the
Japanese state has made up its collective mind, and remains completely deaf to the desires and
needs of parents and to the well-being of the children who rely on it for their care.
I know that hearing this is not the reason you wrote to me. It’s the preliminary and ultimate point
of view that I have with respect to Japan, all the same.
The part of the story that is new to me and is most impressive was the public action you took at
the end of the story, most recently. The Asian Pacific Conference.
What you did is what every parent should do, and what resources are raised by parents’ groups
ought to be dedicated to doing. Instead however, the parent groups I know of use their resources
(which 1 assume are really limited) to fly to Washington DC, to walk on Embassy row, trying to
speak to a few members of the US Congress and DOS officials with whom they have established
relationships. All that is fine, but I assume you know enough about the state of these governmental
institutions and their capture by private interests to know why it is that nothing comes of polite
conversations with Congresspersons and representatives of US DOS.
I’m unsurprised that the agencies of the US government have been entirely unhelpful. I have been
through all of that, as have the rest of us.
I don’t have access to any list of families or kids abducted by the Japanese; neither from the United
States nor from the rest of the world. 1 doubt that anyone has such a list; in order to compile one, it

86

would probably require the collaboration of large powerful agencies - such as the Department of
State - which would have to be responsive to the interests of the people. As I know very well, the
interest of actual people are not on the radar of concern of the United States government.
I wish I did have a list. It would be well worth publishing it and using it as a weapon against the
enemies who have attacked us and failed to help us.
I’m assuming that you’ve also contacted the left behind parent groups that exist in Japan and those
that claim existence here in the United States and abroad; and that you’ve asked them for the same
information. I wonder if any of them have replied or shown interest?
As far as I’m able to know, as much as 1 sympathize deeply with them for the losses they have all
suffered, and the merciless pains of going on living in this condition, the parent groups (at least
those in the U.S.) have not come to a full realization of how they are situated with regard to the
powers of the state, and of the imbalance between them (us) and the private interests that have the
capacity to use and establish state services. Or maybe they all know, but just keep on going to
Washington to relieve themselves of some of the burden.
I do not want it to sound like I think I know something that they do not, or that I am wiser than
anyone else. If I had wealth, I might do the same things... going to Japan to yell into the abyss of
indifference, or going to Washington to stare into the blank eyes of government officials. But I am
certain that the institutions do not offer answers, or help, or concern.
Of course, I don’t actually want their concern. I got tired long ago of giving officials opportunities
to make puppy eyes and sad faces at us. 1 want them to blast a hole in the Japanese wall of child
imprisonment. What is maybe the hardest lesson is to come to the understanding that the
government of the United States has made it its business to maintain that wall and keep our children
confined and separated from us. It’s easier for them to remain deaf, rather than making a demand
to which Japanese are deaf as well.
1 wish you strength and best possible luck in your struggle to protect your son. It’s torture being
faced with this unbelievable callousness. It takes a deep toll on us. The damage is enormous; and
we struggle to maintain our kindness and decency.
Regards, and thanks for writing.
Brian Prager
CHILD’S NAME REDACTED father

87

EXHIBIT C.

/ i ^
"V

t:

t

La

mi

««gVv •

Sf

r

/

►
V

i'-,1

ff

&

ii

ST

ft1-*

flP5r?

*

><
'•
H

**

i

t

*
*

#-

£
*

■#

*

, 4

I.

br

*

L<tw
*’#

*JS: ■- , f ~

i.' w

£
*r
'•
*
*
' *+>■ iMfc

%
\
. *

4

4-.

88

:

EXHIBIT D.
TRANSCRIPT BEGINS
Jack Stone
My name is Jack Stone. I am the father of the boy sitting in front of me.
Today is April 29th 2020, and I’m going to ask my son some questions for legal purposes.
What is your name?
M.S.
Response redacted, as the child is a minor, six years of age, and the name is to be
redacted from the record under applicable state and federal law to protect the privacy of
the minor.
M.S. answered the question truthfully and accurately.
Jack Stone
How old are you?
M.S.
Six years old.
Jack Stone
Do you have a brother?
M.S.
Yes.
Jack Stone
What is your brother’s name?
M.S.
Response redacted from the record under applicable state and federal law to protect the
privacy of the minor.
M.S. answered the question truthfully and accurately.
Jack Stone
Is your mother keeping your brother from us?
M.S.
Yes.

89

Jack Stone
How do you feel about that?
M.S.
Bad.
Jack Stone
Do you love your brother?
M.S.
Yes.
Jack Stone
Do you want to live with your brother?
M.S.
Yes.
Jack Stone
Where?
M.S.
Hawaii.
Jack Stone
Where are you now?
M.S.
Japan, Sendai.
Jack Stone
Do you like being in Japan?
M.S.
No.
Jack Stone
Do you want to be in Japan?
M.S.
No.
Jack Stone
Are Japanese people nice to us?

90

M.S.
No.
Jack Stone
Do you have any friends in Japan?
M.S.
No.
Jack Stone
Do you go to counseling?
M.S.

Yes.
Jack Stone
What country are you in?
M.S.

Japan.
Jack Stone
What continent is Japan in?
M.S.

Asia.
Jack Stone
What country am 1 from?
M.S.

America.
Jack Stone
What country are you from?
M.S.

America.
Jack Stone
Can you speak English?
M.S.

Yes.

91

Jack Stone
Can you speak Japanese?
M.S.
No.
Jack Stone
Do you want to go to school in Japan?
M.S.
No.
Jack Stone
Why?
M.S.
Because no one speaks English.
Jack Stone
Can teachers speak English in Japanese schools?
M.S.
No.
Jack Stone
Even a little?
M.S.
No.
Jack Stone
Can children in Japan speak English?
M.S.
No.
Jack Stone
Do you want to go back to America?
M.S.
Yes.
Jack Stone
When?

92

M.S.
Right now.
Jack Stone
Right now?
Do you understand these questions that are being asked?
M.S.
Yes.
Jack Stone
What color is the ocean in Hawaii?
M.S.
Crystal blue.
Jack Stone
Is there garbage on the beaches in Hawaii?
M.S.
No.
Jack Stone
What color is the ocean in Japan?
M.S.
Black.
Jack Stone
Is there garbage on the beaches in Japan?
M.S.
Yes.
Jack Stone
A little ora lot?
M.S.
A lot.
Jack Stone
How do you feel about that?
M.S.
Bad.

93

Jack Stone
Do you like to go to a beach, filled with garbage everywhere?
M.S.
No.
Jack Stone
Has any judge, or court helped us return to America?
M.S.
No.
Jack Stone
What do I do, all day, every day?
M.S.
Court writing.
Jack Stone
How is my hand, and how is my shoulder from that?
(Mr. Stone received special testing accommodations while in law school, which included
having to speak final exams into a tape machine, due to being permanently disabled, and
having no use of his right arm. Mr. Stone has had several shoulder surgeries and had
surgery in Japan while engaging in these legal matters. Mr. Stone is also being treated for
cancer.)
M.S.
Really bad.
Jack Stone
Can 1 use my hand much?
M.S.
No.
Jack Stone
How do you feel about that?
M.S.
Bad.
Jack Stone
Where is your bicycle?
M.S.
Florida.

94

Jack Stone
Where is your surfboard?
M.S.
Florida.
Jack Stone
Where is your skateboard?
M.S.
Florida.
Jack Stone
Where are all of your favorite toys?
M.S.
Florida.
jack Stone
Where are all of your clothing?
M.S.
Florida.
Jack Stone
What kind of food to we eat?
M.S.
Mostly organic food.
Jack Stone
Can we get organic food in Japan?
M.S.
A little bit.
Jack Stone
Why do farmers grow food?
M.S.
To make money.
Jack Stone
Do farmers grow food because they care about your health?

95

M.S.
No.
Jack Stone
So, is healthy food important to you?
M.S.
Yes.
Jack Stone
Can we read labels on food in Japan?
M.S.
No.
Jack Stone
Let me ask you this, what’s glyphosate?
M.S.
A bad poison.
Jack Stone
Do you want to eat food with glyphosate?
M.S.
No.
Jack Stone
Do you want to remain in Japan?
M.S.
No.
Jack Stone
Where do you want to go?
M.S.
Hawaii.
Jack Stone
Do you understand the questions I’m asking you?
M.S.
Yes.

96

Jack Stone
OK, I have a few more questions.
Do you have long hair?
M.S.
Yes.
Jack Stone
Do Japanese boys, any of them, have long hair?
M.S.
No.
Jack Stone
Do Japanese people call you a boy, or a girl?
M.S.
A girl.
Jack Stone
How do you feel about that?
M.S.
Bad.
Jack Stone
I’ll ask you a few other questions, focus with me here, all right? Look at me, you want to focus.
M.S.
OK.
Jack Stone
Let’s play Simon Says. Put your hand here. What bone is that?
M.S.
The mandible.
Jack Stone
OK, put your hand right here. What bone is that?
M.S.
The sternum.
Jack Stone
What bones attach to the sternum?

97

M.S.
The ribs.
Jack Stone
What bone is this bone?
M.S.
The humerus?
Jack Stone
And what bones are these two bones in your arm right here?
M.S.
The ulna and the radius.
Jack Stone
What are your two hip bones called?
M.S.
Ileum and ischium.
Jack Stone
OK, what is the atomic number of Helium?
M.S.
Two.
Jack Stone
What does that mean?
M.S.
It means how many protons are in the nucleus?
Jack Stone
OK, I’m going to ask you a few more questions.
What’s the square of 8?
M.S.
64.
Jack Stone
Let’s make it easy for you. Let’s go quickly right through...
What’s 2 squared?

98

M.S.
4.
Jack Stone
What’s 4 squared?
M.S.
16.
Jack Stone
What’s 5 squared?
M.S.
25.
Jack Stone
What’s 7 squared?
M.S.
49.
Jack Stone
What’s 9 squared?
M.S.
81.
Jack Stone
What’s 11 squared?
M.S.
121.
Jack Stone
What’s 13 squared?
M.S.
169.
Jack Stone
What’s 16 squared?
M.S.
256.

99

Jack Stone
OK, so all these questions I have asked you, do you understand them?
M.S.
Yes.
Jack Stone
I want to ask you one other question.
What continent is America in?
M.S.
North America.
Jack Stone
OK, that’s pretty much it.
Is there anything you would like to tell the court? I’m going to give this to the judge. I
doubt he’ll even watch it. Because he doesn’t like to read, and he doesn’t like to watch
things. He likes to get paid 150 thousand a year and do as little as possible. They don’t
really care that you’re kidnapped. They don’t really care about that. OK? So, we have to
go through many courts to try and get you out of Japan.
Let me ask you one last time. Do you want to stay in Japan?
M.S.
No.
Jack Stone
Do you like being in Japan?
M.S.
No.
Jack Stone
Are these your answers, or are they Dada’s answers?
M.S.
My answers.
Jack Stone
OK, thank you buddy.
TRANSCRIPT ENDS

100

